TV
C@OCKLE

2311 Douglas Street ; E-Mail Address:
Omaha, Nebraska 68102-1214 L € ga l B rie f 3 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-337

REGENTS OF THE UNIVERSITY OF MINNESOTA,
Petitioner,

Vv.
LSI CORPORATION, ET AL.,
Respondents.

AFFIDAVIT OF SERVICE
I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the Sth day of December, 2019, send out

from Omaha, NE 3 package(s) containing 3 copies of the BRIEF IN OPPOSITION in the above entitled case. All parties
required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:

MEG E. FASULO ADAM K. MORTARA
BARTLIT BECK LLP Counsel of Record
1801 Wewatta Street NEVIN M. GEWERTZ,
Suite 1200 TAYLOR A.R. MEEHAN
Denver, CO 80202 BARTLIT BECK LLP

54 W. Hubbard Street

Suite 300

Chicago, IL 60654
(312) 494-4400
adam.mortara@bartlitbeck.com

Counsel for Respondent
Gilead Sciences, Inc.

Subscribed and sworn to before me this Sth day of December, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

crepe, hex C lite Oude h, Ghly

My Commission Expires Nov 24, 2020
Notary Public Affiant 38985

 

 
 

Attorneys for Petitioner

Kevin K. Russell Goldstein and Russell, P.C.
Counsel of Record 7475 Wisconsin Avenue
Suite 850

Bethesda, MD 20814

krussell@goldsteinrussell.com

Party name: Regents of the University of Minnesota

 

Attorneys for Respondents

Mark Simon Davies Orrick, Herrington & Sutcliffe LLP
Counsel of Record Columbia Center
1152 15th Street NW
Washington, DC 20005

mark.davies@orrick.com

Party name: Ericsson Inc. and Telefonaktiebolaget LM Ericsson

Kristopher Lane Reed Kilpatrick Townsend & Stockton LLP

Counsel of Record 1400 Wewatta St., Ste. 600
Denver, CO 80202

kreed@kilpatricktownsend.com

Party name: LSI Corporation and Avago Technologies U.S. Inc.

 

 
